                                   September 30, 1999


                                   MARY S. ELCANO
                                   GENERAL COUNSEL

                                   Subject: 	 USPS Ethics Program – Conflicts of Interest
                                              (Report Number EX-LA-99-001)

                                   During the course of an Office of Inspector General inquiry,
                                   we noted opportunities to enhance the administration of the
                                   United States Postal Service (USPS) Ethics Program.
                                   Specifically, we found the procedures for disclosing
                                   potential conflicts of interest could be improved in two
                                   areas.

Company and                        First, we noted that the names of those companies and
Contractor                         contractors that might be associated with matters coming
Disclosure                         before the Board each month were not disclosed to the
                                   Governors. Thus, a Governor might act on an issue in
                                   which the Governor had a financial interest or in which there
                                   could be an appearance of a conflict. The Governor would
                                   not know with any certainty whether such a financial interest
                                   was implicated requiring a waiver or whether there might be
                                   an appearance of an impartiality issue needing an
                                   authorization for the Governor to participate in the matter.
                                   Second, we noted that Governors are not required to fully
                                   disclose intermediary business relationships1 to the General
                                   Counsel, who serves as the Designated Agency Ethics
                                   Official.

Concurrent                         During our inquiry, the USPS Law Department instituted
Management                         enhancements in the Ethics Program that fully addressed
Enhancements                       our first issue and partially addressed our second issue.




1
  Intermediary business relationships involve situations where an individual is a principal in a firm. The clients of the
firm may not necessarily be the clients of the individual. Moreover, the individual’s clients pay the firm for his/her
services as opposed to paying the individual.
USPS Ethics Program – Conflicts of Interest	                                        EX-LA-99-001



                               Regarding our first issue, the Civil Practice Section of the
                               USPS Law Department now sends to each Board member
                               an alphabetical listing of all the business entities that have
                               been identified in connection with each agenda item for the
                               monthly Board meeting. With that listing are instructions for
                               reviewing the list for conflicts and a reminder to consider
                               intermediary business relationships. Additionally, the Civil
                               Practice Section had begun to perform monthly “conflicts
                               checks” prior to each Board meeting using a specially
                               devised database containing the reported holdings of each
                               Board member. The database is updated regularly with
                               information received from the Governors, their brokers, and
                               asset managers. The Civil Practice Section compiles a list
                               of companies and contractors that might be associated with
                               matters slated to come before the Board each month. The
                               Section then compares the names on the list to the reported
                               holdings of each Governor. If potential conflicts are noted, a
                               determination is made of whether a recusal or waiver is
                               appropriate using criteria established by the Office of
                               Government Ethics. In the case of an appearance of a
                               conflict, the USPS Law Department determines whether an
                               authorization to participate in the matter should be issued.

                               Regarding the second issue, we have been informed that
                               the Law Department sends to each Board member an
                               alphabetical listing of all of the business entities that have
                               been identified in connection with each agenda item for the
                               monthly Board meetings. With that listing are instructions
                               for reviewing for conflicts, a reminder to consider imputed
                               interests and the telephone numbers of the Designated
                               Agency Ethics Official and Alternate Designated Agency
                               Ethics Official.

Suggestion 	                   We believe the changes in the Ethics Program instituted by
                               the USPS Law Department enhance the administration of
                               the USPS Ethics Program. However, we suggest the USPS
                               Law Department offer an additional service to the
                               Governors and senior postal management by requesting
                               voluntary disclosure of intermediary business relationships.
                               We clearly recognize that this is not an Office of
                               Government Ethics program requirement. However, we
                               believe full disclosure of intermediary business relationships




                                                     2
                                          Restricted Information
USPS Ethics Program – Conflicts of Interest                                         EX-LA-99-001



                               will provide an added protection for the Governors and
                               senior postal management as it would allow the Civil
                               Practice Section to consider these interests in their monthly
                               review of potential conflicts of interest.

Management                     The Senior Vice President and General Counsel stated that
Comments                       the law does not require intermediary business relationships
                               be monitored. Management also stated that the Postal
                               Service’s existing conflict check procedures, which comport
                               with ethics regulations and laws, already encourage and
                               facilitate the provision of timely information by Governors
                               and senior postal management. Further, the current
                               procedures are consistent with statutory requirements.
                               Finally, management stated that the Office of Government
                               Ethics agreed that the Postal Service’s present system of
                               conflict checks is an effective tool for assisting in the prompt
                               identification of potential conflicts of interest. Management’s
                               verbatim responses are contained in the Appendix.

Evaluation of                  The General Counsel did not agree to implement our
Management                     suggestion. We acknowledge that this suggestion goes
Comments                       beyond what is required by the Office of Government Ethics.
                               However, our objective was to offer additional protection to
                               the Governors and senior Postal officials beyond that
                               afforded under the current system. While we believe these
                               enhancements would aid in timely identification of potential
                               conflicts of interest in the future, we will not pursue this
                               issue through the resolution process.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact                , Deputy General Counsel, or
                               me at (703) 248-2300.



                               Norman Hancock
                               Assistant Inspector General
                                for Customer

                               cc: Alan B. Kiel
                                   John Gunnels




                                                     3
                                          Restricted Information
USPS Ethics Program – Conflicts of Interest                        EX-LA-99-001




                                                     4
                                          Restricted Information
USPS Ethics Program – Conflicts of Interest                        EX-LA-99-001




                                                     5
                                          Restricted Information
